VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                    Veterans Benefits 

                                                                     Administration 

                                                                         – Interim Report –
                                                                       Efforts to Effectively 

                                                                     Obtain Service Treatment 

                                                                    Records and Official Military 

                                                                         Personnel Files 





                                                                                              May 15, 2014
                                                                                              14-00657-144

                                         TABLE OF CONTENTS 


Executive Summary ......................................................................................................................... i
 

OIG’s Management Advisory ..........................................................................................................1
 

                         Recommendations: ..............................................................................................2
 

VA Under Secretary for Benefits Comments ..................................................................................4
 

Appendix A                Office of Inspector General Contact and Staff Acknowledgments .....................6
 

Appendix B                Report Distribution .............................................................................................7
 




            To Report Suspected Wrongdoing in VA Programs and Operations: 

                                               Telephone: 1-800-488-8244 

                                              Email: vaoighotline@va.gov

                               (Hotline Information: www.va.gov/oig/hotline)

                           EXECUTIVE SUMMARY 



During our ongoing Audit of VBA’s Efforts to Effectively Obtain Service Treatment Records and
Official Military Personnel Files, we conducted a site visit at the regional office (RO) in
St. Petersburg, FL. We conducted a tour of the RO and identified file storage and mail
processing issues requiring attention and action by the Under Secretary for Benefits. RO
employees shared information during interviews that supported our observations and the issues
identified.

The RO has a large file room used to store claims folders, as well as service treatment
records (STRs) and copies of official military personnel files (OMPFs) that have been combined
with claims folders. We observed that the file room was overfilled with records. As a result, RO
personnel have encountered difficulties locating files and in moving banks of files in the
permanent shelving units due to the volume and weight of the files.

The intake processing center (IPC) within the RO receives incoming documents and files from
the mailroom. We determined that mailroom personnel did not date stamp STR files and copies
of OMPFs files at the time of receipt. Without this information, RO management cannot review
and assess potential issues and delays with receiving and processing STR and OMPF requests.
Once documents and files are delivered to the IPC, employees sort and prepare evidence mail,
which includes STRs and copies of OMPFs. Claims processors use evidence mail to further
develop and make decisions on veterans’ disability claims. IPC employees reported that there
was about a 3-week delay in sorting and processing evidence mail received from the mailroom.

We are conducting our audit of STRs and OMPFs in accordance with generally accepted
government auditing standards (GAGAS). For this interim report, we did not follow all of the
reporting standards because we determined these issues required attention before we would issue
our audit report. Reporting, as an interim advisory, helps VBA take actions required to address
the identified issues. We believe that the work performed provided sufficient evidence for our
conclusion. The final report on our audit on STRs and OMPFs will address the GAGAS
requirements related to reporting.

We made three recommendations to help ensure efficient file storage and mail processing at the
RO. Reporting on these issues in a Management Advisory allowed VBA the opportunity to take
timely corrective actions.      The Under Secretary for Benefits concurred with our
recommendations and provided suitable action plans. Based on actions taken, we consider two
recommendations closed. We will follow up as required on the other recommendation and
continue with our ongoing national audit.




LINDA A. HALLIDAY
Assistant Inspector General
for Audits and Evaluations

                                                                                               i
                           Interim Report –VBA’s Efforts to Effectively Obtain Service Treatment Records
                                                                       and Official Military Personnel Files

OIG’s Management Advisory



                  Department of                               Memorandum
                  Veterans Affairs

          Date:	    April 11, 2014
          From:	    Assistant Inspector General for Audits and Evaluations (52)

          Subj:	    Management Advisory—Audit of VBA’s Efforts to Effectively Obtain Service
                    Treatment Records and Official Military Personnel Files

            To:     Under Secretary for Benefits (20)

                    1. Our ongoing Audit of VBA’s Efforts to Effectively Obtain Service
                    Treatment Records and Official Military Personnel Files, which we are
                    conducting in accordance with generally accepted government auditing
                    standards, identified issues related to file storage and mail processing at the
                    regional office (RO) located in St. Petersburg, FL. We are providing this
                    Management Advisory for your attention and action to ensure VBA provides
                    the RO with the support needed to address the issues.

                    2. During the week of March 3, 2014, we conducted a site visit at the RO
                    located in St. Petersburg, FL. We toured the RO and identified file storage
                    and mail processing issues. RO employees shared information during
                    interviews that supported our observations and the issues identified.

                    3. File Storage Issues: The RO has a large file room used to store claims
                    folders, as well as service treatment records (STRs) and copies of official
                    military personnel files (OMPFs) that have been combined with claims
                    folders.

                        a. We observed that the file room was overfilled with records. Due to
                        the lack of space on permanent shelving units; files were stored on end
                        caps, on shelves built around the perimeter of the room, and in loose
                        boxes stored against the outside walls of the room. As a result, RO
                        personnel have encountered difficulties locating files and in moving
                        banks of files in the permanent shelving units due to the volume and
                        weight of the files.

                        b. During our interviews, RO employees stated that lost and misfiled
                        records in the file room were a major issue. We requested 10 hardcopy
                        claims files for review, and 1 file was not available because it could not
                        be located. The RO maintains a log of claims files that were “rebuilt”




VA Office of Inspector General                                                                            1
                           Interim Report –VBA’s Efforts to Effectively Obtain Service Treatment Records
                                                                       and Official Military Personnel Files




                  Management Advisory—Audit of VBA’s Efforts to Effectively Obtain Service Treatment Records
                  and Official Military Personnel Files


                  because the originals were lost or misfiled. We obtained the log, which
                  contained 27 rebuilt claims files since September 2013. RO management
                  reported having a longer history of lost files, but said an employee
                  inadvertently overwrote some records.


                  4. Mail Processing Issues: The intake processing center (IPC) receives
                  incoming documents and files from the mailroom. Once these documents
                  and files are delivered to the IPC, employees sort and prepare evidence mail,
                  which includes STRs and copies of OMPFs. Claims processors use
                  evidence mail to further develop and make decisions on veterans’ disability
                  claims. IPC employees also prepare documents and files for shipping to a
                  vendor that scans documents into the Veterans Benefits Management
                  System. For documents and files that are not shipped, employees sort and
                  place the evidence in mail bins for claims processors to obtain when needed
                  for additional development on pending claims. RO management reported the
                  IPC currently maintains 225 individual mail bins, containing about
                  12,375 pieces of evidence mail. This is evidence that should be associated
                  with claims folders.

                      a. Mailroom personnel did not date stamp STR files and copies of
                      OMPF files at the time of receipt. Without this information, RO
                      management cannot review and assess potential issues and delays with
                      receiving and processing STR and OMPF requests. This affected our
                      ability to fully assess the local STR and OMPF request and receipt
                      process, including areas where potential delays exist.

                      b. IPC employees reported that there is currently about a 3-week delay
                      in sorting and processing evidence mail received from the mailroom. In
                      December 2013, VBA reduced its time frames for federal record requests
                      to 30 days (from 60 days) for initial requests and 15 days (from 30 days)
                      for subsequent follow-up. Given the 3-week delay in the IPC, claims
                      processors could potentially submit follow-up requests for documents
                      that are pending in the IPC. This delay could also result in employees
                      improperly denying claims because evidence mail needed to
                      substantiate the claim had not been sorted and processed.

                  5. Recommendations: We recommend the Under Secretary for Benefits:

                       a. Identify and implement options to help alleviate the file storage
                       issues at the regional office in St. Petersburg, FL.




VA Office of Inspector General                                                                                 2
                           Interim Report –VBA’s Efforts to Effectively Obtain Service Treatment Records
                                                                       and Official Military Personnel Files




                  Management Advisory—Audit of VBA’s Efforts to Effectively Obtain Service Treatment Records
                  and Official Military Personnel Files



                      b. Ensure mailroom personnel date stamp service treatment record
                      files and copies of official military personnel files on the day they are
                      received at the regional office in St. Petersburg, FL.

                      c. Identify and implement options to improve timeliness of evidence
                      mail processing at the regional office in St. Petersburg, FL.


                  6. Please provide your written comments to this Management Advisory by
                  April 28, 2014. Your comments should provide an implementation plan and
                  target completion dates for addressing the recommendations. If you have
                  questions or wish to discuss the issues in this Management Advisory, please
                  contact Nick Dahl, Director, Bedford Audit Operations Division.




VA Office of Inspector General                                                                                 3
                               Interim Report –VBA’s Efforts to Effectively Obtain Service Treatment Records
                                                                           and Official Military Personnel Files

VA Under Secretary for Benefits Comments



                  Department of                                   Memorandum
                  Veterans Affairs

          Date:	         April 21, 2014
          From:	         Under Secretary for Benefits (20)

          Subj:	         OIG Management Advisory—Audit of VBA’s Efforts to Effectively Obtain
                         Service Treatment Records and Official Military Personnel Files – VAIQ
                         7466216
            To:          Assistant Inspector General for Audits and Evaluations (52)



                   1.	   Attached is VBA’s response to the OIG Management Advisory—Audit of
                         VBA’s Efforts to Effectively Obtain Service Treatment Records and Official
                         Military Personnel Files
                   2.    Questions may be referred to Christine Ras, Program Analyst, at 461-9057.




                         Attachment




VA Office of Inspector General                                                                                4
                           Interim Report –VBA’s Efforts to Effectively Obtain Service Treatment Records
                                                                       and Official Military Personnel Files




                                                                                            Attachment

                                     Veterans Benefits Administration (VBA)

                            Comments on OIG Management Advisory Memorandum 

               Audit of VBA’s Efforts to Effectively Obtain Service Treatment Records and Official 

                                             Military Personnel Files


              VBA concurs with OIG’s findings and provides the following comments in response to
              the recommendations in the OIG Management Advisory Memorandum:


              Recommendation 1: We recommend the Under Secretary for Benefits identify and
              implement options to help alleviate the file storage issues at the regional office in St.
              Petersburg, FL.

              VBA Response: Concur. The St. Petersburg Regional Office (RO) was given
              authority to retire 100,000 claims folders to the VBA Records Management Center
              (RMC) and hire 20 temporary file clerks to support this effort. The first shipment of
              50,000 files will be sent to the RMC by July 3, 2014, and the remaining 50,000 files
              will arrive by August 1, 2014. This file relocation, along with the natural progression
              of files being shipped to the scanning vendor, will alleviate the file storage issues at
              the RO.

              Target Completion Date: August 1, 2014

              Recommendation 2: We recommend the Under Secretary for Benefits ensure
              mailroom personnel date stamp service treatment record files and copies of official
              military personnel files on the day they are received at the regional office in St.
              Petersburg, FL.

              VBA Response: Concur. The St. Petersburg RO mailroom is now date stamping all
              incoming service treatment record files and copies of official military personnel files
              on the day they are received at the RO.

              VBA requests closure of this recommendation.


              Recommendation 3: We recommend the Under Secretary for Benefits identify and
              implement options to improve timeliness of evidence mail processing at the regional
              office in St. Petersburg, FL.

              VBA Response: Concur. To address this issue, 10 employees were detailed to work
              evidence mail for approximately 2 weeks. This resulted in the RO timeliness of
              evidence mail being reduced from 21 days to 5 days. In addition, the Veterans
              Service Center permanently assigned 5 new Veterans Service Representatives to the
              Intake Processing Center (IPC) team to specifically work evidence mail. The RO also
              received authority to hire 5 additional Claims Assistants that will be on station by
              May 31, 2014, and assigned to the IPC to maintain timeliness of evidence mail
              processing.

              VBA requests closure of this recommendation.




VA Office of Inspector General                                                                            5
                          Interim Report –VBA’s Efforts to Effectively Obtain Service Treatment Records
                                                                      and Official Military Personnel Files

Appendix A          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	                  For more information about this report, please
                                                     contact the Office of Inspector General at
                                                     (202) 461-4720.

                      Acknowledgments	               Nick Dahl, Director
                                                     Stephen Bracci
                                                     C. Russell Lewis
                                                     Jason Schuenemann
                                                     Joseph Vivolo




VA Office of Inspector General                                                                           6
                          Interim Report –VBA’s Efforts to Effectively Obtain Service Treatment Records
                                                                      and Official Military Personnel Files

Appendix B          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Benefits Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Director, Veterans Benefits Administration’s Southern Area Office
                    Director, VA Regional Office St. Petersburg

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget




                  This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                           7
